Supreme Court, U.S. .
FILED

NO: 21OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

Page | 1
WILLIE FRANK WALKER
PETITIONER
VS
STATE OF FLORIDA

On Petition for a Writ of Certiorari to
The United States Court of Appeals
For the Eleventh Circuit

1.

QUESTIONS PRESENTED

QUESTION PRESENTED FOR REVIEW
The Court lacks subject matter and personal jurisdiction for the reasons below.
Page | 2

1.

This Court, and all public offices, is defined under FRCP Rule 4(j) as a FOREIGN
STATE, and as defined under TITLE 28-JUDICIARY AND JUDICIAL PROCEDURE
The Sovereign Immunities Act (FSIA) of 1976 is a United States law, codified at
Title 28, §§§§§ 1330, 1332, 1391(f), 1441(d), and 1602-1611, and is being
jurisdictionally challenged, and “full disclosure” of the “true” jurisdiction of this Court
has been asked but has stayed silent’?

2.

Any failure to disclose the true jurisdiction is a violation of 15 Statues at Large,
For this was passed to remove the people of the united States of America from the
federal citizenship under the 14th amendment. Chapter 249 (section 1), enacted July 27,
1868?
Ijis the court’s responsibility to prove it has subject matter jurisdiction, and where
judge arbitrarily claims the court has jurisdiction, he is violating the defendants rioht tn
due process of the law. It is, in fact, the plaintiff s responsibility to prove, on the record.
That jurisdiction exists, and jurisdiction can be challenged at any time, even years later,
and even collaterally, as in a private administrative process, as was done herein. It is the
petitioner’s right to challenge jurisdiction, and it is the plaintiff/prosecutor’s duty to
prove it exist. The respondent herein was given the opportunity (multiple times) to put
the facts of jurisdiction on the administrative record, but acquiesced bv tacit procuration

to the fact that the constitutional and due process violations alleged bv the petitioner did.
m fact, occur, and did, in fact, deprive the court of subject matter jurisdiction, which is
now the record before the court?
Page | 3
4.

That it is not the prosecutor’s duty and obligation to provide ALL the facts that establish
the court’s jurisdiction, and place them upon the record - even in a collateral attach
against jurisdiction?

5.

The Prosecutor(s) has failure to comply with any/all request of jurisdictional issues for
the record in which violates the “Accardi Doctrine” in which the U.S. Supreme Court has
provided. The prosecutors originally asserted that the Court had personal and subjectmatter jurisdiction and no evidentiary documents were presented. Like any other
evidence placed on record, all evidence pertaining to lawful jurisdiction can and be
inspected by all parties in the case. Shouldn’t they be presented instead of tacit
admission?

6.

For The Claimant; is “transient foreigner” without legal domicile as defined in [28 USC
1332 (d), 4 USC 110 (d). In the event that the “State” (Legal Fiction) makes a claim
against claimant(s) herein declares his ‘person” to be “stateless person” and outside any/all
general jurisdiction of the federal government. [All “stateless persons” fail to be subject to
the jurisdiction of any/all courts because domiciled outside of the general jurisdiction of the
federal government].

TABLE OF CONTENTS
I.

QUESTIONS PRESENTED FOR REVIEW

II.

PETITION FOR WRIT OF CERTIORARI

III.

OPINION BELOW

IV.

JURISDICTION

V.

UNITED STATES CONSTITUTION AMENDMENT XIV

VI.

STATEMENT OF CASE

VII.

ARGUMENT

VIII.

CONCLUSION

TABLE OF AUTHORITIES
CASES
Main v. Thiboutot

100 S, CT 2502 (1980)

Me Nutt v. GMAC

298 U, S,178

Maxfields Lessee v. Levy 4 U.S. 308
U.S, SUPREME COURT "Accardi Doctrine"

STATUTES

TITLE 28 1330; 1332; 1391(f) 1441 (d) 1602-1611

28 USC 1332(d)
4 USC 110 (d)
28 USC 1257
MCL 450.681 See 1
P.A. 354 in 1917

CONSTITUTIONAL PROVISIONS
UNITED STATES CONSTITUTION, AMENDMENT XIV

II.

PETITION FOR WRIT OF CERTIORARI
TT

Willie Walker, an inmate and being held by the STATE OF FLORIDA, respectfully petitions to
review any/all sentencing Courts of this matter.
Page | 4

III.

OPINION BELOW

The decision by the 11th District of Appeals is marked “Exhibit “A”.
IV. Jurisdiction
Willie Walkers petition for appeal was denied by the 11th District Court. Willie Walker invoked
this courts jurisdiction under 28 USC 1257, having timely filed this petition for a writ of
certiorari within ninety days of the ruling.
v.

United States Constitution, Amendment XIV

All persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and the States wherein they reside. No State shall make
or enforce any law which shall abridge the privileges or immunities of citizens of the United
States , nor shall any State deprive any person of life, liberty, or property , without due process of
law, not deny any person within its jurisdiction the equal protection of the laws.
VI.

STATEMENT OF THE CASE

The Court lacks subject matter and personal jurisdiction for the reasons below.
This Court, and all public offices, is defined under FRCP Rule 4(j) as a FOREIGN
STATE, and as defined under TITLE 28-JUDICIARY AND JUDICIAL PROCEDURE
The Sovereign Immunities Act (FSIA) of 1976 is a United States law, codified at

Title 28, §§§§§ 1330, 1332, 1391(f), 1441(d), and 1602-1611, and is being
jurisdictionally challenged, and “full disclosure” of the “true” jurisdiction of this Court
has been asked but has stayed silent’.
Page | 5

Ills the eourt s responsibility to prove it has subject matter jurisdiction, and where
judge arbitrarily claims the court has jurisdiction, he is violating the defendant’s right to
due process of the law. It is, in fact, the plaintiff’s responsibility to prove, on the record.
That jurisdiction exists, and jurisdiction can be challenged at any time, even years later,
and even collaterally, as in a private administrative process, as was done herein. It is the
petitioner s right to challenge jurisdiction, and it is the plaintiff/prosecutor’s duty to
prove it exist. The respondent herein was given the opportunity (multiple times'! to put
the facts of lurisdiction on the administrative record, but acquiesced by tacit procuration
to. the fact that the constitutional and due process violations alleged bv the petitioner did.
in fact, occur, and did, in fact, deprive the court of subject matter jurisdiction, which is
now the record before the court.
That it is not the prosecutor’s duty and obligation to provide ALL the facts that establish
the court’s jurisdiction, and place them upon the record - even in a collateral attach
against j urisdiction.
The Prosecutor(s) has failure to comply with any/all request ofjurisdictional issues for
the record in which violates the “Accardi Doctrine” in which the U.S. Supreme Court has
provided. The prosecutors originally asserted that the Court had personal and subjectmatter jurisdiction and no evidentiary documents were presented. Like any other

evidence placed on record, all evidence pertaining to lawful jurisdiction can and be
inspected by all parties in the case. Shouldn’t they be presented instead of tacit
admission.
Page | 6

VII.

ARGUMENT

The Trail Courts jurisdiction has been challenged therefore, no matter how it is statedonce challenged must be proven. With a claim of lack ofjurisdiction, the only course of
action for a case previously decided without lawful jurisdiction is, to declare the case
void from beginning. The Respondent(s) has never met the standards to prove lawful
jurisdiction existed, from the beginning, [See Main v. Thiboutot, 100 S, Ct 2502(1980)
The law provides that once State and Federal jurisdiction has been challenged, it must be
proven.]
Jurisdiction, once challenged, is to be proven, not by the Court, but by
the party attempting to assert jurisdiction, the burden of proof of
jurisdiction lies with the asserter. The Court is only to rule of the
sufficiency of the proof tendered, See McNutt v.GMAC, 298 U.S. 178. The
origins of this doctrine of law may be found in Maxfield’s Lessee v. Levy4 U.S.
308.
VIII. CONCLUSION
For the foregoing reasons, Willie Walker respectfully request that this Court issue a Writ of
certiorari to review the above stated reasons. The request implied is to order the
Respondent^} to produce evidence of fact(s) they relied upon to determine the courts
jurisdiction or acknowledge that non existed from the beginning. The United States Sup reme

Court has stated (sites omitted) the challenge of subject matter may be raised at any time, it
never stated what form.

~

'------------;

The MCL 450.681 Sec. 1 and P.A. 354 in 1917 is in plain English about how illegal it is for a
Page | 7
Corporation representing another corporation, or anyone outside of itself, i.e. Herbert Erving
Walker III attorney at law. The Court would lack persona jurisdiction if there is not a nexus
between parties; and all attorneys comes under the Judicial Branch and are judicial officers
under the Supreme Court which means they can only represent the Court and not the People,
the State or bring forth evidence, therefore this Aggrieved Party challenges the asserted
jurisdiction of the Court in the aforementioned cause for the record.
■0

Dated this.P day of July 2021.

Pr*.

Willie Walker

